<html>
<title> - WILDFIRE: STAKEHOLDER PERSPECTIVES ON BUDGETARY IMPACTS AND THREATS TO NATURAL RESOURCES ON FEDERAL, STATE, AND PRIVATE LANDS</title>
<body><pre>[Senate Hearing 114-267]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 114-267

                   WILDFIRE: STAKEHOLDER PERSPECTIVES
                    ON BUDGETARY IMPACTS AND THREATS
                    TO NATURAL RESOURCES ON FEDERAL,
                        STATE, AND PRIVATE LANDS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION


                               __________

                            NOVEMBER 5, 2015

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.fdsys.gov/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-996 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
DAVID PERDUE, Georgia                MICHAEL BENNET, Colorado
JONI ERNST, Iowa                     KIRSTEN GILLIBRAND, New York
THOM TILLIS, North Carolina          JOE DONNELLY, Indiana
BEN SASSE, Nebraska                  HEIDI HEITKAMP, North Dakota
CHARLES GRASSLEY, Iowa               ROBERT P. CASEY, Jr., Pennsylvania
JOHN THUNE, South Dakota

               Joel T. Leftwich, Majority Staff Director
                Anne C. Hazlett, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director

                                  (ii)

  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Wildfire: Stakeholder Perspectives on Budgetary Impacts and 
  Threats to Natural Resources on Federal, State, and Private 
  Lands..........................................................     1

                              ----------                              

                       Thursday, November 5, 2015
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                               Witnesses

Dessecker, Dan, Director of Conservation Policy, Ruffed Grouse 
  Society/American Woodcock Society, Rice Lake, WI...............     6
Dougan, William R., National President, National Federation of 
  Federal Employees, Washington, DC..............................     7
Stewart, Ken, Chair, Board of Trustees, American Forest 
  Foundation, Marietta, GA.......................................     9
Treese, Chris, Manager, External Affairs Department, Colorado 
  River Water Conservation District (Colorado River District), 
  Glenwood Springs, CO, Testifying on behalf of the National 
  Water Resources Association....................................    11
Wood, Chris, President & CEO, Trout Unlimited, Arlington, VA.....    12
                              ----------                              

                                APPENDIX

Prepared Statements:
    Dessecker, Dan...............................................    26
    Dougan, William R............................................    28
    Stewart, Ken.................................................    34
    Treese, Chris................................................    40
    Wood, Chris..................................................    49
Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    Testimony of Congressman Bruce Westerman.....................    58
    Letter of support for H.R. 2647 from various organizations...    60
    Intertribal Timber Council, written testimony................    62
    California Forest and Watershed Alliance (CAFWA), written 
      testimony..................................................    68
    Federal Forest Resource Coalition, written testimony.........    73
    Letter of support for H.R. 2647 from various organizations...    82
    Letter of support for H.R. 2647, Industry Sign On Letter, 
      September 2015.............................................    84
    National Association of Counties (NACo), September 18, 2015..    86
    National Association of Counties (NACo), written testimony...    88
    Western Governors' Association, written testimony............    93
    Association of California Water Agencies, written testimony..   101
    The Corps Network, written testimony.........................   106
Stabenow, Hon. Debbie:
    Department of Forestry and Fire Protection, written testimony   110
Boozman, Hon. John:
    ``Resilient Federal Forests Act Treats Symptom and Disease'', 
      October 1, 2015............................................   112
Stewart, Ken:
    ``Western Water Threatened by Wildfire:'' American Forest 
      Foundation.................................................   113
Question(s) and Answer(s):
Dessecker, Dan:
    Written response to questions from Hon. Pat Roberts..........   140
    Written response to questions from Hon. Debbie Stabenow......   140
Dougan, William R.:
    Written response to questions from Hon. Pat Roberts..........   142
    Written response to questions from Hon. Amy Klobuchar........   144
Stewart, Ken:
    Written response to questions from Hon. Pat Roberts..........   146
Treese, Chris:
    Written response to questions from Hon. Pat Roberts..........   149
    Written response to questions from Hon. Debbie Stabenow......   151
Wood, Chris:
    Written response to questions from Hon. Pat Roberts..........   152
    Written response to questions from Hon. Debbie Stabenow......   154
 
                   WILDFIRE: STAKEHOLDER PERSPECTIVES
                    ON BUDGETARY IMPACTS AND THREATS
                    TO NATURAL RESOURCES ON FEDERAL,
                        STATE, AND PRIVATE LANDS

                              ----------                              


                       Thursday, November 5, 2015

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Boozman, Perdue, Ernst, Tillis, Grassley, Thune, Stabenow, 
Brown, Klobuchar, Bennet, Gillibrand, Donnelly, and Casey.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order.
    Today, the committee turns its attention to a topic that is 
quite timely coming off the end of a disastrous wildfire 
season. It is my hope that this hearing adds to the public 
record about the need to address significant policy issues 
regarding catastrophic wildfire and forest management on 
federal, state, and private lands.
    Let me emphasize that our committee has the oversight 
responsibility for the U.S. Forest Service, whose primary 
mission is to sustain the overall health, diversity, and 
productivity of our country's National Forests. Often thought 
of as a Western issue on public lands, this hearing serves as a 
reminder that the Agriculture Committee has a critical role in 
the larger wildfire debate.
    National Forests, unlike National Parks and Refuges, are 
supposed to be administered and managed in a manner to provide 
multiple uses and benefits. The Forest Service readily admits 
that nearly half of the acres of the National Forest System are 
at high risk of devastating insect infestations, disease, and 
catastrophic wildfires. As a result of policy decisions from 
decades ago, we are now witnessing a significant decline in 
timber harvests and frivolous lawsuits halting active forest 
management and forest restoration projects, leaving our 
National Forests consisting of overstocked stands, simply as 
more fuel for more fires. Coupled with other threats, such as 
chronic drought and uncharacteristic insect outbreaks, our 
National Forests are sitting as hazardous fuel stockpiles 
susceptible to damaging wildfires.
    Today's wildfire season generates larger, hotter, and more 
dangerous wildfires, which unlike the occurrence of natural 
wildfires that have restorative abilities, these catastrophic 
emergencies devastate landscapes, ecosystems, communities, and 
people.
    In response to this, the 2014 farm bill provided some 
valuable tools and authorities to the Forest Service. The 
Forest Service has made positive strides in implementing these 
provisions, but we have to see more progress and work on the 
ground.
    This summer, the Administration warned Congress that 
wildfire suppression costs will consume the Forest Service's 
annual appropriated budget in the coming years. Wildfire 
preparedness and suppression costs now account for nearly half 
of the agency's annual discretionary budget. That is up from 
$1.6 billion in 1994 to $3.9 billion in 2014, last year.
    Meanwhile, in order to address the rising agency costs, the 
Forest Service redirects other non-fire account program 
resources to cover the cost for wildfire suppression. This 
redirection of program funding, or ``fire borrowing,'' is 
disruptive to the Forest Service and its ability to conduct 
other vital activities like preventive active forest management 
and hazardous fuels reductions.
    The Agriculture Committee has a long history of working on 
and advancing legislation on forestry matters, most notably 
with the passage of the Healthy Forests Restoration Act of 
2003. I would like to remind everyone that our Committee is a 
resource and we want to work with you as we try to tackle this 
wildfire issue. My hope is the message shared with us today 
reinforces and necessitates that the status quo is unacceptable 
and Congress must focus on this issue.
    Before a shovel can break ground or even a chainsaw can 
enter a National Forest--obviously, not on its own--as a former 
Forest Service chief once said, quote, ``there is a crazy quilt 
of laws'' that the Forest Service must comply with which is 
time consuming and costly. The Forest Service must comply with 
well over 50 separate laws, like NEPA, the Clean Water Act, and 
the Endangered Species Act, just to name a few. The entire 
process, averaging at least three years for agency review and 
approval from the project's original inception--three years--
not to mention the threat of frivolous lawsuits to stop this 
kind of restoration work, adds further time, uncertainty, 
costs, and delays.
    These are fundamental and systemic problems contributing to 
the degradation of the National Forest System. It is time that 
Congress, the Administration, and stakeholders advocate for 
solutions that not only address funding fixes, but more 
importantly advocate for solutions that improve the management 
of our forests. Tough decisions will have to be made on a 
bipartisan basis for policies that promote greater streamlining 
and agency efficiencies so the Forest Service can actually 
conduct this kind of work.
    Wildfire knows no boundaries. Forest Service efficiencies 
and bureaucratic red tape is a significant contributor 
prohibiting necessary and viable restoration work. If nothing 
changes, everything goes up in smoke.
    I look forward to hearing from our witnesses.
    With that, I recognize our distinguished Ranking Member, 
Senator Stabenow, for any remarks she might have.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman. 
This is a very important hearing, obviously, and we appreciate 
all of our witnesses coming, giving their time and perspective 
and expertise.
    I particularly want to give a special welcome to Chris Wood 
with Trout Unlimited, which was founded in my home State of 
Michigan in 1959, and we are so happy that you are here and 
look forward to your input on these critical issues.
    This summer was yet, as we know, another record breaking 
wildfire season that resulted in more than nine million burned 
acres, destruction of thousands of homes and properties, and 
tragically, these fires took the lives of 13 wildland 
firefighters. We all know our thoughts and prayers here today 
are with the families of those brave men and women.
    This devastation is a stark reminder of the challenges we 
face when dealing with the issue of wildfires. A warming 
climate, coupled with record droughts and increased residential 
development in fire-prone areas has made this problem worse and 
more complex for us to deal with.
    While there is not a singular solution that will fix this 
problem, there are several measures that we as policymakers can 
enact now to help make a significant difference, and I hope we 
will talk about those today.
    In July, this committee heard from USDA Under Secretary 
Robert Bonnie, who oversees the Forest Service, about the 
urgent need to fix the Forest Service's budget. Fixing the 
Forest Service budget is of paramount importance and needs to 
be a top priority for this Congress and for our committee and 
others.
    The Forest Service is now routinely forced to transfer 
funds away from key projects, like forest restoration and 
timber sales, which help alleviate the threat of wildfires, and 
instead must use these funds to help pay for firefighting. This 
dynamic, known as ``fire transfer'' or ``fire borrowing,'' is a 
huge problem, as the Chairman talked about. These transfers can 
cause what is essentially a ``stop work order'' on ongoing and 
long planned projects, which only place much of our forest at 
risk to everything from fires to invasive species when this 
work cannot be completed.
    For example, a grant to help protect our Michigan forests 
against invasive species was pulled back by the Forest Service 
so they could spend that money on fighting fires. There are 
stories similar to this, I know, that colleagues have across 
the country. It is time to stop these transfers.
    To address this, Senators Crapo and Wyden introduced 
bipartisan legislation, the Wildfire Disaster Funding Act, 
which would end the fire transfers by allowing the worst one or 
two percent of wildfires to be treated like natural disasters. 
Under this plan, the Forest Service would be able to fight the 
most severe fires more effectively by using disaster funds--
certainly, these are disasters like any other disaster in our 
country--rather than having to transfer funds from other 
accounts as they are now doing. I am pleased to be a cosponsor 
of this legislation. I appreciate their bipartisan approach and 
I hope that we will pass the bill.
    Also, the 2014 farm bill, as the Chairman said, made 
significant reforms to the way we manage our National Forests. 
As we discuss building on these changes, something I am hopeful 
that we will talk about this morning, I suggest we also 
continue to prioritize the full implementation of the reforms 
enacted last year.
    In fact, just last week, the State of Michigan and the 
Forest Service entered into a Good Neighbor Agreement. These 
agreements, which we expanded in the farm bill, are a great way 
that states and the federal government can partner to help 
restore our forests and sustain the more than 26,000 jobs that 
depend on healthy, vibrant forests in Michigan.
    Mr. Chairman, I hope the committee is going to continue, 
and I know we will, in a bipartisan way to develop consensus 
around restoring and protecting our natural forests. I hope we 
will start by supporting the Wildfire Disaster Funding Act, 
which will free up needed resources to carry out policies that 
our committee as a whole has long championed.
    I appreciate, again, your calling this meeting, and as 
always, look forward to working with everyone on the committee. 
Thank you.
    Chairman Roberts. I appreciate the comments by my colleague 
and friend.
    Welcome to our panel of witnesses before the Committee this 
morning. I am eager to hear testimony from all of you, as all 
members are, on this very important issue. I believe we have 
compiled a panel of witnesses that will be very constructive in 
the larger wildfire debate.
    Our first witness is Mr. Dan Dessecker, who is the Director 
of Conservation Policy for the Ruffed Grouse Society and is 
responsible for the administration and development of the 
organization's conservation policy initiatives to promote 
forest health and wildlife habitat to sustain population for 
species of upland birds. In addition to his professional 
accolades, Dan serves on a number of wildlife and conservation 
boards, including the Department of Interior's newly 
established Sporting Conservation Council. Dan joins us from 
Rice Lake, Wisconsin. Welcome. I look forward to your 
testimony.
    Our next witness is Mr. William ``Bill'' Dougan, who 
currently serves as the President of the National Federation of 
Federal Employees, a union representing federal employees 
including U.S. Forest Service firefighters. Prior to his 
current position, Mr. Dougan has served in a variety of 
capacities throughout his career with the Department of 
Interior, U.S. Forest Service, as a former Forester in the 
West, and even as a former Forest Service firefighter. Welcome. 
I look forward to your testimony, sir, and your insight.
    Mr. Ken Stewart will be introduced by the distinguished 
Senator, Senator David Perdue.
    Senator Perdue. Thank you, Mr. Chairman.
    I am pleased to introduce today Mr. Ken Stewart from 
Marietta, Georgia. Mr. Stewart currently serves as Chairman of 
the Board of Trustees for the American Forest Foundation. He 
has also returned to my alma mater, Mr. Chairman, Georgia Tech, 
to work as Deputy Director of the newly formed Renewable 
Bioproducts Institute, after having retired as a Senior Advisor 
of Industry Strategy at Georgia Tech in 2010. Previously, he 
was appointed Commissioner of the Georgia Department of 
Economic Development in January 2007. He joined state 
government in September 2004 when he was appointed Director of 
the Georgia Forestry Commission.
    Mr. Stewart's perspective on wildfire for the private 
landowner is especially important in our state, since Georgia 
has more privately owned commercially available timberland than 
any state in the country. Of Georgia's 24 million acres, 55 
percent is owned by private individuals, only eight percent by 
public, federal, state, and county.
    We should draw on Mr. Stewart's wealth of knowledge along 
with the experience of private and family forest landowners in 
the field. Their voices and concerns are critical as we discuss 
the importance of forest management and other forestry issues 
that impact them directly.
    Ken, thanks for being here. We look forward to your 
testimony.
    Chairman Roberts. Our next witness is Mr. Chris Treese and 
Senator Bennet is planning to introduce this witness and I 
recognize the distinguished Senator.
    Senator Bennet. Thank you, Mr. Chairman, and thank you to 
you and Senator Stabenow for allowing me to introduce our next 
witness.
    It really is my pleasure to welcome Chris Treese to today's 
hearing. He lives in beautiful Glenwood Springs, Colorado, 
where he serves as the Manager of External Affairs for the 
Colorado River Water Conservation District, more commonly known 
as the Colorado River District. He oversees legislative and 
regulatory issues that affect the Colorado River basin, and 
over the years, we have worked with Chris on a number of issues 
important to this committee.
    You should know, Mr. Chairman, that he helped us to develop 
portions of the conservation title of the 2014 farm bill. He 
helped ensure that the bill focused on water quantity in the 
new Regional Conservation Partnership Program. He also helped 
us build consensus around the bill's forestry reforms. This 
includes the new treatment program for forests suffering from 
insect and disease epidemics, which is so important to our 
State of Colorado.
    So, I would like to welcome Chris Treese to the committee 
and once again thank him for being here today.
    Chairman Roberts. I thank the Senator.
    Our next witness will be Chris Wood. Mr. Wood currently 
serves as the President and CEO of Trout Unlimited, which is a 
national conservation organization dedicated to conserve, 
protect, and restore North America's cold water fisheries and 
their watersheds. Prior to joining Trout Unlimited, Mr. Wood 
has also served in a variety of positions within the U.S. 
Forest Service and the Bureau of Land Management during the 
Clinton Administration.
    Welcome to our panel. I look forward to your testimony. It 
should be noted that the Committee worked very hard to get 
witnesses addressing this issue by the name of Wood and Treese.
    [Laughter.]
    Chairman Roberts. Let us start off with our first panelist, 
please, and you may begin, sir.

  STATEMENT OF DANIEL R. DESSECKER, DIRECTOR OF CONSERVATION 
 POLICY, RUFFED GROUSE SOCIETY/AMERICAN WOODCOCK SOCIETY, RICE 
                        LAKE, WISCONSIN

    Mr. Dessecker. Chairman Roberts, Ranking Member Stabenow, 
and members of the Committee, thank you for the opportunity to 
be here with you this morning.
    If we are to maintain the full array of forest wildlife on 
our National Forests, we have to maintain the full array of 
forest wildlife habitats, and, frankly, we are not doing that 
at this point.
    National Forests throughout the Eastern United States have 
accomplished, on average, only 24 percent of their minimum goal 
for young forest habitats as identified in existing forest 
plans. We need to expand active management to move beyond that 
small number, and to do this, we need to provide the agency 
with adequate personnel and financial resources.
    Unfortunately, as you pointed out, the U.S. Forest Service 
is indeed becoming the U.S. Fire Service. When 50 percent of 
the agency budget is eaten alive by addressing these 
conflagrations, that can make it very difficult for the agency 
to accomplish much of anything else, and a big chunk of that 
money is going to these mega-fires, which are increasingly 
common on the landscape, and unfortunately, are only likely to 
become even more so.
    Every year, like wildfires in the West, we face tornadoes 
and hurricanes and we treat them and fund them as the natural 
disasters they are. It is time we consider doing the same thing 
for these mega-fires, these large, massive fires that simply 
consume the landscape.
    Personnel and financial resources used to combat these 
mega-fires, these natural disasters, are unavailable to be used 
for wildlife conservation and other agency objectives. This 
leads to the loss of wildlife habitat diversity on the forests, 
and what we see from that is a loss of wildlife that require 
diverse habitats.
    Ruffed grouse, a critter of immense importance to my 
members, is declining throughout forests across the country, 
particularly in the East. Elk and deer across the nation also 
are declining as these habitats become in short supply. Hunting 
is big business. Elk and deer hunters number about 11 million 
across the nation, and the expenditures that those folks 
provide local economies, rural economies, account for a major 
portion of the $34 billion spent by sport hunters every year. 
So, this is not small pocket change.
    It is not just game animals. When you look at Region 9, 
which is the Northeastern quarter of the country, 
approximately--if you look at just species that require young 
forest habitats, those species are apt to be six times as 
likely to be declining as they are increasing. Region 8, the 
Southeastern portion of the country, same birds, same species, 
nine times as likely to be declining as they are increasing. We 
need to address that. These trends are real. They are 
disturbing from an ecological perspective, but they are 
reversible.
    As you mentioned, this committee and others in Congress did 
a great job on the recent farm bill in providing Good Neighbor 
Authority, which will be helpful. It is just getting into gear, 
but we think it has got tremendous potential to enhance what we 
can do on the landscapes by expanding state agency and other 
private partnerships.
    Targeted categorical exclusion to address insect and 
disease issues, again, an excellent tool. We need to expand 
these tools. One way to do so would be to identify additional 
targeted categorical exclusions, particularly one geared toward 
providing wildlife habitat diversity on the forests.
    We need to enhance budgetary certainty within the agency. 
We have to give them the resources to utilize to meet the 
challenges they face.
    In summary, wildlife is pretty much the window through 
which many within our nation view our National Forests, and we 
need to enhance the ability of the agency to meet the 
objectives and the expectations of the public. Thank you.
    [The prepared statement of Mr. Dessecker can be found on 
page 26 in the appendix.]
    Chairman Roberts. Mr. Dougan.

 STATEMENT OF WILLIAM R. DOUGAN, NATIONAL PRESIDENT, NATIONAL 
        FEDERATION OF FEDERAL EMPLOYEES, WASHINGTON, DC

    Mr. Dougan. Thank you, Chairman Roberts, Ranking Member 
Stabenow, and members of the committee, for inviting me to 
testify. Our union represents 110,000 federal workers across 
the country working in 35 different federal agencies and 
departments, including 20,000 in the Forest Service.
    Prior to being elected to national office at NFFE, I spent 
31 years working for the federal government. I worked primarily 
in the U.S. Forest Service and spent 22 years fighting 
wildfires.
    I can tell you, firefighting is dangerous business. When 
you are on a fire, the only thing between you and trouble is 
your equipment and the brave men and women with you on the fire 
line. That is why it is so important that we arm firefighters 
with the training and resources they need to be safe and 
complete the mission.
    The wildfire problem in the U.S. is growing. Seven of the 
worst fire seasons since 1960 have occurred in the last 15 
years. This year, nearly 54,000 wildfires have burned 9.4 
million acres, compared to the ten-year average of nearly 
69,000 wildfires burning 6.5 million acres. We must recognize 
that this is the new normal and we must change the way we do 
business to account for it.
    The USDA Inspector General issued a report in 2010 that 
predicted future shortages of qualified firefighters in the 
Forest Service. Too few were being trained to replace those 
retiring. That prediction is now coming to fruition and it is a 
major problem.
    Wildland firefighting agencies have done tremendous work to 
improve interagency cooperation. The development of a 
consistent certification and training system, administered by 
the National Wildfire Coordinating Group, is an outstanding 
achievement. My union is proud to be a partner in the Wildland 
Firefighter Apprenticeship Program, which we hope will take 
consistency in training to the next level. Unfortunately, this 
program has been underutilized, in our view.
    The attrition rate for wildland firefighters is alarmingly 
high. I am proud that my union worked with Representatives 
Gerry Connolly, Don Young, and Rob Bishop in the House and 
Senator Tester in the Senate on the Land Management Workforce 
Flexibility Act. I would like to thank Senator Johnson for his 
assistance in bringing the bill forward for a vote, where it 
was passed by unanimous consent and signed into law by the 
President in August.
    For a wildland firefighter, experience is hard earned on 
the fire line. Prior to passage of this legislation, the 
firefighter career path was blocked by flawed and dysfunctional 
federal regulations which prevented long-term temporary 
employees from being able to advance their careers. Because of 
this barrier to career advancement, many skilled firefighters 
eventually left, taking their valuable skills with them. With 
this legislation signed into law, it will ensure that these 
long-term temporary employees are allowed to compete fairly for 
permanent positions when they become vacant, thereby retaining 
critical skills within the fire workforce.
    I am disappointed to report that we are still awaiting OPM 
to issue implementation guidance to federal agencies. 
Unfortunately, while we wait, hiring for next year's 
firefighting workforce is already underway. Pending OPM 
guidance, agencies are not considering long-serving seasonal 
firefighters for career positions under merit promotion. If 
this does not change within the next few weeks, the knowledge 
loss we have been seeing for far too long already will continue 
another year.
    Funding for wildfire suppression continues to be a problem. 
With the occurrence and severity of wildfires increasing, the 
portion of the budget that goes to fire suppression and 
preparedness has increased dramatically. In fiscal year 2015, 
the overall fire management budget for the Forest Service was 
$2.5 billion. Of that, $708 million was for fire suppression 
and $303 million was in a special account for firefighting. 
This is a 60 percent increase from a decade ago.
    The expense of fighting wildfires often exceeds the funds 
appropriated for wildfire suppression. When this happens, 
agencies transfer funds from other programs into firefighting 
accounts to cover the shortfall. This so-called ``fire 
borrowing'' results in cancellations and delays in the agency's 
on-the-ground program of work.
    In fiscal year 2015, the Forest Service was forced to 
transfer about $700 million from other programs in order to be 
able to continue to pay for suppression costs after initial 
funding was exhausted. Ironically, many of the canceled 
projects are those designed to reduce the frequency and 
severity of catastrophic wildfires. It is robbing Peter to pay 
Paul and it costs taxpayers more. We urge Congress to pass the 
Wildfire Disaster Funding Act to address this.
    In addition to ensuring that there is sufficient funding 
available to pay for wildfire suppression costs, reduction of 
hazardous fuels in our forests and within communities existing 
in the wildland-urban interface must be part of a holistic 
strategy to reduce the risk of wildfires escaping initial 
attack and becoming catastrophic in nature. Simply increasing 
the suppression budget by itself will not be effective in 
reducing the impacts of wildfires.
    It is time for Congress to take action to provide the 
resources and the flexibility necessary to protect the critical 
resources found in National Forests across the country and to 
protect communities across our nation from wildfire. These 
reforms cannot wait until next year. They need to be acted on 
immediately.
    I thank the committee for holding this hearing and would be 
happy to answer any questions you might have.
    [The prepared statement of Mr. Dougan can be found on page 
28 in the appendix.]
    Chairman Roberts. Mr. Dougan, thank you very much for your 
personal testimony on behalf of our firefighters. I know the 
Ranking Member and myself, all members of the committee, will 
join me in trying to light a fire under the Office of Personnel 
Management.
    Senator Stabenow. Nice pun.
    [Laughter.]
    Chairman Roberts. Mr. Stewart.

 STATEMENT OF KEN STEWART, CHAIR, BOARD OF TRUSTEES, AMERICAN 
 FOREST FOUNDATION, AND DEPUTY DIRECTOR, RENEWABLE BIOPRODUCTS 
 INSTITUTE, GEORGIA INSTITUTE OF TECHNOLOGY, MARIETTA, GEORGIA

    Mr. Stewart. Mr. Chairman, Ranking Member Stabenow, and 
members of the committee, this is the perfect time for this 
hearing, of course. The fire season is coming largely to an end 
right now and I am so impressed with how well informed the 
committee is from the opening statements that were made about 
many of the issues that we are facing.
    The American Forest Foundation represents the interest of 
22 million family forest landowners across this country, and 
these are the private landowners that we are talking about 
here. The interest--your leadership on this issue is very 
important to us, and I would like to also submit for 
introduction into the record a report from the American Forest 
Foundation, ``Western Water Threatened by Wildfire: It is Not 
Just a Public Lands Issue.''
    So, principally, I am going to talk about not the public 
side, but the private side today. Thirty percent of the lands 
in the 11 Western states are privately owned, and of that, 40 
percent of the high fire threat lands are lands that are owned 
privately are in the critical fire hazard area. The interesting 
part of that is 64 million Westerners depend on that watershed 
for their drinking water.
    The catastrophic wildfires that they are facing out West 
right now and have been facing burned so hot that it creates 
what is called a parking lot effect. It effectively bakes the 
soil, so when we have snow melt or rain, it runs off. It takes 
all the debris and contaminants and things with it. It does not 
soak up into the soils and trees as would normally happen and 
filter it. As a result, a lot of the municipalities in the West 
are spending millions of additional dollars just treating their 
water that they depend on, 64 million Westerners.
    Well, the American Forest Foundation dug into this, mostly 
on the private side, and what we basically found, that there 
are some barriers to action. The people that own the land, yes, 
they are ready to go. Seventy-seven percent say, yes, there is 
a disconnect. We have got a couple things we need to deal with. 
One is the cost of it and the other is that we if we treat our 
land and our neighbors do not, then what happens? What have we 
accomplished? They have got a good point. So, this is something 
that I think is appropriate for Congress to begin dealing with, 
for sure.
    The metrics I mentioned earlier, that we have had 16 
percent of the Forest Service budget was dedicated to fires a 
decade ago, 50 percent now, and projected to be two-thirds in 
2025 if something is not done. The impact outside the West for 
this is what is important, and you would think that for Georgia 
and the Southern states, which also--and the Midwestern states 
also have fire problems, but state and private forestry 
programs are impacted and they have seen a 12 percent decrease 
in the last five years in their budget. Part of these are 
mitigation programs, too, which caused this not to happen. Some 
individual programs are down 20 percent.
    Earlier, it was mentioned the borrowing program. That is a 
significant issue in terms of the whipsaw effect on programs, 
and some 40 percent of the Service Foresters have been laid off 
in the states.
    So, this is not all about problems. Part of this is about 
solutions, and I am particularly going to focus on private 
lands here. But, first we recommend there are three solutions 
to consider.
    One is we just must fix how wildfire fighting is funded. 
Obviously, Congressional action is needed and has been 
introduced to treat it like other federal emergency funding.
    Secondly, we need funding to better enable the treatment of 
private family lands and do it on a landscape approach. This is 
simply words that say we need to be collaborative, we need to 
work with our partners, we need to work with the U.S. Forest 
Service, the National Resource Conservation Service, local and 
community agencies, as well, so that we have a coordinated 
landscape approach.
    Third certainly is about markets. That is near and dear to 
my heart. It starts with markets. We have a way of spending 
some public money to develop and support those markets through 
loans and grant programs to help develop them.
    So, Mr. Chairman, members of the committee, certainly the 
time to act is now. Thank you for your consideration, and I 
believe that what we are talking about here should have good 
bipartisan support.
    [The prepared statement of Mr. Stewart can be found on page 
34 in the appendix.]
    [The information of Mr. Stewart can be found on page 113 in 
the appendix.]
    Chairman Roberts. Mr. Stewart, thank you very much for your 
testimony and more especially pointing out that 30 percent of 
the forestland is held in private lands and your rather 
dramatic statement regarding the 64 million people who depend 
on their water supply with regards to the real problems that we 
face.
    Mr. Treese.

STATEMENT OF CHRIS TREESE, MANAGER, EXTERNAL AFFAIRS, COLORADO 
RIVER WATER CONSERVATION DISTRICT, GLENWOOD SPRINGS, COLORADO, 
     ON BEHALF OF THE NATIONAL WATER RESOURCES ASSOCIATION

    Mr. Treese. Good morning. Thank you, Chairman Roberts, 
Ranking Member Stabenow, thank you, Senator Bennet, for the 
generous introduction, members of the committee. I have the 
honor today of representing both my employer, the Colorado 
River Water Conservation District, and the National Water 
Resources Association and its members across 13 Western states.
    As this committee knows, the founding purpose of the 
National Forest System was to secure favorable water flows. The 
currently degraded conditions of our National Forests adversely 
impacts water chemistry, runoff timing, and water yield. Large-
scale high-intensity wildfires are becoming more frequent and 
significantly larger. Colorado alone from 2004 to 2007, an 
average of 40,000 acres of forestland was burned. That average 
jumped from 2007 to 2014 to 140,000 acres per year.
    While wildfires can cause significant loss of water and 
hydropower infrastructure, wildfires' greatest impact to the 
water community often comes after the fire is out. Flooding, 
siltation, and debris flows represent the major and recurring 
threat post-fire. A 2003 study found post-fire runoff can 
increase tenfold and erosion rates increase up to 100 times 
over pre-fire conditions.
    Remediation costs quickly run into the tens of millions. 
Additionally, drinking water treatment costs suffer similar or 
greater increases. Nearly all of these costs are borne by local 
utilities and water providers.
    Federal actions must address both fire suppression and fire 
prevention. I applaud Senator Bennet's introduction of the 
bipartisan PREPARE Act addressing FEMA's limited funding of 
fire disasters and fire prevention. Already mentioned is the 
need to address ``fire borrowing.'' The adequate resources for 
fire suppression cannot come at the expense of fire prevention.
    Fire mitigation works. The record-setting Hayman wildfire 
in Colorado raced across Denver's foothills as an 
uncontrollable crown fire until it reached an area of the 
forest that had been previously thinned, when it dramatically 
and immediately dropped to a lesser intensity and manageable 
ground fire.
    The 2014 farm bill's Regional Conservation Partnership 
Program created an innovative and competitive grant program to 
encourage and facilitate innovative watershed partnerships. The 
Resilient Federal Forests Act builds on the good work of this 
committee and the 2014 farm bill by incentivizing collaboration 
with local governments by expediting permitting for qualifying 
projects. Too often, environmental permitting comes as an 
impediment to critical, time sensitive, on-the-ground actions. 
The farm bill's authorization of categorical exclusion for 
insect infestations is very much appreciated and is being 
successfully employed in my district. These are good starts.
    The deteriorating conditions of our forests did not come 
overnight and we do not contend that immediate action is 
possible--excuse me, immediate resolution is possible, but 
immediate action is imperative.
    The Western water community is committed to working 
collaboratively over the long haul to improve our forests' 
health. I look forward to your questions.
    [The prepared statement of Mr. Treese can be found on page 
40 in the appendix.]
    Chairman Roberts. Mr. Treese, thank you very much for your 
testimony, especially emphasizing the need for expediting 
policy as best we can do that.
    Mr. Wood.

STATEMENT OF CHRIS WOOD, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
              TROUT UNLIMITED, ARLINGTON, VIRGINIA

    Mr. Wood. Thank you, Chairman Roberts, and thank you, 
Ranking Member Stabenow and committee members. My name is Chris 
Wood. I am the President and CEO of Trout Unlimited.
    Thank you for the opportunity to testify here today on 
wildfire management on public lands. The committee is right to 
focus on this issue. High levels of wildfire spending, 
including wholesale borrowing from other National Forest 
programs, are substantially undermining the ability of the 
Forest Service to manage our National Forests.
    I offer this testimony today on behalf of Trout Unlimited 
and its 155,000 members, many of whom use and enjoy National 
Forests around the country. In fact, half of the nation's blue 
ribbon trout streams flow across the green lands of the 
National Forest Service.
    As has been said, wildfires are becoming larger and more 
severe. Contributing factors include changing climate 
conditions, hotter, dryer summers, longer, more severe drought, 
increasing development in fire-prone areas, and the legacy of 
past timber management and fire suppression policies that have 
left many of our forested areas vulnerable.
    The practice of budget raiding to fight fires significantly 
disrupts the mission of the Forest Service and the very health 
of the forests underneath its jurisdiction. Ironically, the 
more money that is transferred or reallocated to fight fire, 
the less money is available for restoration activities that 
would improve forest resiliency and minimize the severity and 
impact of fires.
    We need to address two related problems: First, the mid-
season unplanned fire borrowing, and second, the scope and 
scale of forest restoration work.
    A solution to fire funding would allow access to disaster 
funding and address the increasing costs of suppression over 
time. The Wildfire Disaster Funding Act is the right solution 
to solve this problem.
    In addition, we must accelerate the scope and the pace of 
restoration on our National Forestlands. As has been mentioned, 
the recent farm bill created opportunities, including a small 
targeted exemption from NEPA analysis for certain projects, 
permanent stewardship contracting authority, and the expansion 
of Good Neighbor Authority.
    It is important to note, however, that cutting trees alone 
will not restore our forests. Restoration must be looked at--
must be approached by looking at how best to recover ecological 
functions and processes that keep the land healthy. Closing or 
relocating roads, fixing culverts, removing unneeded small 
dams, ensuring adequate flows of water, cleaning up abandoned 
mines, and thinning are all part of an integrated forest 
restoration strategy.
    Fundamental to forest restoration is the fact that many of 
these forests that we are talking about are fire adapted and, 
in fact, need fire to remain healthy. Our general approach 
should be to allow fires to burn in remote areas so long as 
they do not pose risks to communities. Most hazardous fuels 
reduction and fire suppression should be focused first and 
foremost on urban-wildland interface areas where people live.
    It is also important that we educate landowners about steps 
that they can take to make their own homes fire safe. 
Homeowners and local governments must bear more responsibility 
for the proliferation of homes in fire-prone areas and help to 
work to reduce the risk to homes and firefighters.
    Thank you again for this opportunity to provide testimony 
on this important issue. Trout Unlimited supports S. 235, the 
Wildfire Disaster Funding Act of 2015, as a critical and 
necessary improvement to the existing fire budgeting process 
and urge the committee to advance the bill.
    [The prepared statement of Mr. Wood can be found on page 49 
in the appendix.]
    Chairman Roberts. I thank the witness.
    I ask unanimous consent to enter the following statements, 
letters of support, supplementary information into the hearing 
record on behalf of ten different organizations that complement 
the testimony of our panelists. Without objection, it is so 
ordered.
    [The following information can be found on page 60 in the 
appendix.]
    Chairman Roberts. I am going to ask members to limit their 
comments to four minutes in the hope that we can conclude this 
hearing, because we do have a vote at 11:00. We have seven 
members--we now have six members present.
    [Laughter.]
    Chairman Roberts. Did the distinguished Senator from 
Colorado leave? That means five. Let me ask our distinguished 
Ranking Member, five into 20 is four, is that not correct?
    Senator Stabenow. That is correct.
    Chairman Roberts. All right. I think we can do this. We ask 
the cooperation of the witnesses and we thank you again for 
your testimony.
    Mr. Dessecker, can you further elaborate on the need for 
maintenance of early successional stage forest habitat, more 
especially with the conservation and environmental benefits 
that accrue from this kind of management to maintain early 
successional stage forest habitat. It seems to me that if we do 
this, we can avoid a lot of the problems later on. Please.
    Mr. Dessecker. Thank you, Mr. Chairman. Yes, early 
successional forests are basically young forests, characterized 
by thick, dense protective cover, dense growth, dense 
vegetation. They house a host of wildlife species that you will 
not find anywhere else, so we have to have those forests on the 
landscape. They host a variety of pollinators, a class of 
critters right now that we are very concerned about. Pollinator 
numbers are declining across the country for various reasons.
    So, without question, we have to employ additional active 
management to try and get a better balance between mature 
forests and old forests--excuse me, mature forests and young 
forests, recognizing that mature forests are equally as 
important as our young forests. But, when we see the latter 
declining at such precipitous rates, we have to increase our 
efforts to address that. A failure to do so will simply mean 
that these species that are of great ecological importance, in 
some regards economic importance, will regain their standing on 
the landscape. A failure to do so, frankly, in my--from my 
perspective, and I am a little biased as a wildlife biologist, 
but I think it would be irresponsible.
    Chairman Roberts. Thank you very much.
    I am going to yield to the distinguished Ranking Member.
    Senator Stabenow. Thank you very much, Mr. Chairman, and 
thank you to all of you.
    I have just a simple question first. I just want to make 
sure we are clear. I would like each of you just to indicate 
whether or not your organization supports the Wildfire Disaster 
Funding Act, if we could just start, Mr. Dessecker.
    Mr. Dessecker. Yes.
    Senator Stabenow. Okay. Mr. Dougan.
    Mr. Dougan. Yes.
    Mr. Stewart. Absolutely.
    Mr. Treese. Yes, ma'am.
    Mr. Wood. Yes.
    Senator Stabenow. I think we have unanimous agreement. That 
is great to know. That is a great place to start.
    Let me then go to more specific kinds of questions, and let 
me start with Mr. Wood, Chris Wood. When you talk about the 
partnerships and through your work with Trout Unlimited as well 
as with the Forest Service in the past, could you talk a little 
bit more about additional examples and details to illustrate 
how damaging the fire transfers are to agencies and their 
partners when you are trying to do the work that you are doing.
    Mr. Wood. Yes, ma'am. What is happening is that 
organizations that work with the Forest Service are doing 
everything they can to spend as much money as they possibly can 
before June, or before the fire season starts. In places like 
Michigan, we have seen inventories, important road inventories, 
that are not being done to help identify places where culverts 
in the landscape need to be replaced because they are bleeding 
sediment into rivers. We have seen lots of endangered species 
work that would be done that cannot be done. Of course, the 
more we do to offset the need to list species, the less social 
and economic disruption we have.
    Essentially, it was said earlier, we are basically robbing 
Peter to pay Paul. We are taking money away from programs that 
help to not only manage healthy landscapes, but create economic 
opportunity and jobs in order to fight fire.
    Senator Stabenow. Thank you very much.
    Mr. Dessecker, could you talk a little bit more, in your 
work with the Forest Service National Advisory
    Committee on the 2012 Forest Planning Rule, do you see new 
opportunities to improve the way the agency develops management 
plans that will reduce fire risk and restore wildlife habitat?
    Mr. Dessecker. I think the primary impetus with regard to 
the implementation FACA Committee that you are referring to, we 
are very interested in the idea of collaboratives, bringing 
people to work together during project planning, during forest 
plan planning, so that there is a greater buy-in. We feel quite 
strongly, and I want to be careful because I do not want to 
speak for the members of the committee, but I think it is fair 
to suggest that there is broad consensus that if we can reduce 
the rancor, we will have more funds to spend on conservation.
    Senator Stabenow. Thank you very much.
    Mr. Dougan, I wonder if you might speak a little bit more 
about your observations over the years. You started, you said, 
in 1979 with the Forest Service, and what implications have the 
changes that you have seen had for the wildland firefighters 
who are out on the front lines?
    Mr. Dougan. I think it is pretty clear that, when you look 
at wildfires over the last ten to 15 years, we are seeing an 
increase in the severity of the fires. These fires are burning 
hotter. They are covering a lot more ground in shorter periods 
of time, which creates problems from a safety standpoint for 
these crews that are out there on the landscape trying to dig 
fire line to stop these fires. We are seeing a lot more crown 
fires, where the fire gets up into the tops of the trees and it 
can spread very rapidly. These fires, if they are large enough, 
they can create their own weather system.
    Much of the large amount of money that is being spent on 
fires is with one percent of the fires that escape initial 
containment and then the landscape characteristics are such and 
the forest characteristics are such that they become 
catastrophic very quickly, placing not only the firefighters, 
but the communities in and around these fires in danger.
    Senator Stabenow. Thank you, Mr. Chairman. I just comment, 
as we close--I will not have a chance to ask Mr. Treese, but I 
really appreciate you mentioning the Regional Conservation 
Partnership Program. I look forward to talking with you more 
about that. I think that was one of the real successes of the 
last farm bill and we are hopeful it will continue to be a 
positive tool. Thank you.
    Chairman Roberts. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Mr. Dougan, I have a question. We understand the discussion 
going around the ``fire borrowing,'' but I have a question 
maybe related to some of the underlying cost. What thoughts do 
you have on things that we can do to reduce the cost of 
suppressing large fires?
    Mr. Dougan. I think we need to invest more in hazardous 
fuel reduction, in pre-suppression activities. It is the same 
approach as going to a dentist and getting your teeth cleaned. 
It is insurance, trying to help not get a cavity. The same 
principle applies in the forests. We have to actively manage, 
these forests.
    If you look at the predominance of forests out in the 
Western United States, these are fire-adapted forests. These 
forests depend on fire. The problem that we have out there 
today is our own making. Over the last 100 years, we have been 
very aggressive in putting out every fire that starts and not 
allowing fire to have a natural role in the landscape and in 
the ecosystems, and because of that, we have had these large 
build-ups of both ground fuels and standing fuel. So, if we get 
a fire going now, it creates a problem. So, we have to be 
actively managing, actively looking at reducing hazards.
    Senator Tillis. I agree with the ounce of prevention 
argument. The question about once it occurs, are we as 
efficient as we can possibly be in ultimately trying to address 
these wildfires once they occur?
    Mr. Dougan. Well, I think there is always room for 
improvement. When I look back on my career and I look back on 
the history of firefighting in this country, other than some of 
the new technology that we have in terms of having planes that 
are dropping fire retardant--we did not have that at the 
beginning of the 1900s--but in terms of the actual work and the 
tools that people on the ground are using to dig fire line, 
that really has not changed very much over the last 100-plus 
years.
    So, I think it is worthwhile thinking about and asking the 
fire agencies, such as the Forest Service and BLM, whether 
there is any interest or whether they think there would be any 
good outcomes in investing some in research and looking at new 
technology to help these folks out on the line.
    Senator Tillis. What about the structural relationships 
with states? I am from North Carolina. We have had a lot of 
firefighters go out West from time to time to assist. How would 
you assess that cooperative relationship when you need 
additional resources to go out there?
    Mr. Dougan. It is absolutely critical, and, this year at 
its peak of this fire season, we had over 30,000 people out on 
fire lines nationwide fighting fire. So, without having the 
ability to move crews, whether they are contractor crews, 
whether they are federal employees, without the ability to move 
those folks where we need them, where the most critical fires 
are, we would have a much worse situation. So, I really 
appreciate the fact that your state and others have pitched in 
over the years and made people available.
    Senator Tillis. Yes. I want to keep to my time, because the 
Chair scares me----
    [Laughter.]
    Senator Tillis. --but I do appreciate all the witnesses. I 
appreciate all the witnesses being here and would appreciate 
any feedback after the hearing in my office. Thank you.
    Thank you, Mr. Chair.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    In Minnesota, forests are a big part of the culture of our 
state, but also of our economy, employing 40,000 people in the 
forest industry, $9.7 billion. That is what my Grandpa did 
after the mine closed down, so it is near and dear to my heart.
    I, like so many people have talked about today, am most 
concerned about the fact that the transfers of money, which 
have to obviously take place for emergency, for fighting fires, 
is taking away from what we can do to prevent these fires from 
happening in the first place. Budget transfers prevented the 
Chippewa National Forest from conducting fuels reduction burns 
on 165 acres this year. This work not only protects the forests 
from wildfires, but also the surrounding communities.
    Mr. Treese, you talked a little bit about how communities 
and water infrastructure is impacted and often destroyed by 
wildfires. How have water resource agencies had to adapt their 
safety procedures to accommodate wildfire risks?
    Mr. Treese. Thank you, Senator. They have done their best, 
but it is an enormous investment. Some of the larger 
communities have been able to create redundancies, 
interconnects with cooperating neighboring agencies, 
neighboring utilities, and created or established multiple 
watershed sources for their water. For the most part, however, 
that is not possible in rural Colorado, in Western Colorado. In 
my district, mostly small communities, that is simply cost 
prohibitive----
    Senator Klobuchar. Yes.
    Mr. Treese. --and you simply run the risk.
    Senator Klobuchar. Right. Exactly.
    Mr. Stewart, what role can private forest landowners play 
in restoring forest health? You mentioned that in your 
testimony.
    Mr. Stewart. Yes, and I speak mostly to the private 
landowner, but, in fact, it is a cooperative effort. I also 
talked about neighbors, and public lands and private lands are 
neighbors throughout the country and they both need to be 
actively managed. The lack of management combined with the 
climate conditions that we find and the drought particularly in 
the West are all contributing factors to where we find 
ourselves.
    But, interestingly, this ultimately gets back to the 
budget, and if we spend money on the budget, maintain the 
programs which continue to improve the land and invest in the 
state and local programs that the Forest Service has, it 
improves it over time and it makes the----
    Senator Klobuchar. Exactly.
    Mr. Stewart. --it mitigates the risk. So, it is something 
we have to continue to invest in.
    Senator Klobuchar. Yes. Thank you.
    Mr. Dessecker, or maybe Mr. Wood over there, again, back to 
my original point here, what do you think we should be doing--
beyond putting money into fighting fires, what should we be 
doing to change some of our policies, craft solutions to 
address forest health, and along those lines, what concrete 
steps should we be taking to assist the Forest Service in 
meeting their forest plan, because I know in Minnesota, they 
have not reached even their goals of how many trees should be 
cut and it is obviously creating a further problem because the 
fires, then, can go more rampant. Mr. Dessecker.
    Mr. Dessecker. Very simply, secure the budgetary authority 
of the agency to fund these things as the way they are, natural 
disasters, as opposed to taking the money from the budget, and 
allow them the personnel resources to get the work done on the 
ground that has been identified through the planning process.
    Senator Klobuchar. Thank you.
    Mr.--go ahead, if you want. Mr. Wood.
    Mr. Wood. No, I think it has been said before. I think the 
ounce of prevention is worth a pound of cure message is one 
that is apt here. We should be taking steps to make sure our 
communities are safe, first and foremost, by doing hazardous 
fuels treatments around those communities, making sure that we 
are protecting homes by taking fire-wise measures and operating 
at larger landscapes in terms of our restoration. But the first 
thing we have to do is fix the ``fire borrowing'' problem.
    Senator Klobuchar. Exactly. Thank you, Mr. Dougan, for your 
work, as well. I am out of time. I will give you a question on 
the record. I am sure you will look forward to that. Thanks.
    [Laughter.]
    Chairman Roberts. I would like to remind the new members, 
or not the new members, the members who have come to the 
committee at this particular time, that we are on a four-minute 
time schedule trying to make the vote.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, very much.
    Thank you all for joining us today. I am sorry to join the 
discussion so late, but if you would, have any of your agencies 
or organizations utilized or witnessed utilization of the 
National Guard forces in any of these forest fire or fire 
activities, and if you could, just please share with us that 
experience.
    Mr. Dougan. Yes. This season was the first time since, I 
believe, 2006, when the National Guard and military forces were 
called in to supplement the firefighting workforce. The Forest 
Service and other agencies responsible for managing those 
incidents utilized many hundreds, if not thousands, of military 
personnel.
    Senator Ernst. Anybody else have experience in utilizing 
any of the National Guard?
    [No response.]
    Senator Ernst. Well, we do have some wonderful Army Guard 
and Air Guard personnel out there, and I just want to reinforce 
that we should not overlook the capabilities that are available 
with those types of response units.
    So, that is all I have. Thank you, Mr. Chair.
    Chairman Roberts. I thank the Senator.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman, and I want to say 
to you on behalf of the people I represent in Colorado how much 
we appreciate your holding this hearing. I think the testimony 
has just been excellent, and what comes through to me is that 
there is a compelling consensus that what we are doing now does 
not work and that we have got to change it, and it is long 
overdue. Your bringing the attention to this issue, I think, 
comes at a critical moment when we can get it done.
    I mean, look, there are two big issues here, I think, and 
the first is, in the name of fiscal responsibility, we are 
managing our forests in the most fiscally irresponsible manner 
we can manage them, which is to say that we are taking the 
money that could be spent on mitigation and on restoration and 
we are using it to suppress fires. Then there is not money left 
to mitigate or restore, which is why we talk about it as penny 
wise and pound foolish. That is what it is. It is ridiculous 
and we have got to stop it. Nobody at the local level would 
ever accept this way of managing their resources and we should 
not accept it, either.
    The second part, I know it is fashionable now, we are 
having debate in this Congress about what the role of the 
federal government should be. Anybody who is downstream of 
these headwaters in Colorado needs to care about the condition 
of the forests in Colorado. We are all in this together. We are 
one nation, and this--I cannot think of an issue where it is 
more true than here.
    So, what we are doing right now, I think, fails the test in 
terms of fiscal responsibility and fails the test in terms of 
anybody's perspective of what federalism means, and I hope we 
are going to be able to get this legislation passed.
    I thank you all again for your excellent testimony.
    Mr. Treese, it has just been great to work with you over 
the past number of years, and the farm bill process was 
difficult, but it resulted in a collaborative product that 
everyone could support and we are seeing the benefits. Two 
projects, as you mentioned in your testimony, are underway in 
Colorado to treat 3,000 acres of forests affected by insect and 
disease epidemics. Now, in the short term, as I mentioned, it 
is clear that we have to fix this ``fire borrowing'' problem, 
but I wonder if you could explain to us from your perspective 
as a water provider why it is so critical to address that and 
how these projects are working in Colorado.
    Mr. Treese. Thank you, Senator. I think the projects are, 
in fact, working, but they are working on a limited basis. They 
are small acreages, but they are critically important. It is 
the prevention. It is, as the commercial says, pay me now or 
pay me later. This is an opportunity to treat the forests both 
through the categorical exclusion and, in fact, the program you 
mentioned also uses the extension of the Good Neighbor Policy 
to work on both federal and private lands cooperatively and 
conjoinedly in neighboring forests to address a larger 
watershed that is used by both the City of Grand Junction and 
the larger Ute Water District around that city, about roughly 
100,000 people.
    Senator Bennet. Maybe, actually, that is the third point of 
consensus that we have heard here, which is the significance of 
collaboration in order to get this done, because fire does not 
know any boundaries, jurisdictional or otherwise.
    Mr. Wood, I am running out of time here. It is my own 
fault. I blabbed, which I do not usually do. But, it is not 
even the subject of this hearing, but I want to thank you for 
leading the effort on Good Samaritan legislation to address the 
acid mine drainage that is polluting streams across the West. 
This is something that we really need to address. I know Trout 
Unlimited has been very involved, and I wonder if you could 
just spend less than a minute talking about where you are in 
the work and where you think you are headed. I have 21 seconds.
    Mr. Wood. Okay. I will be brief. Thank you for those kind 
words. There are essentially two problems with abandoned mines. 
There are literally thousands of them around the West affecting 
the water quality out there. One is that we need relief from 
liability that is implicit in CERCLA and the Clean Water Act, 
and we are making progress there. Then, number two, we need 
more funding to clean those mines up.
    Senator Bennet. Mr. Chairman, thank you again.
    Chairman Roberts. I thank the Senator from Colorado. We can 
see you from Mount Sunflower on the western end of the plains. 
If the smoke is billowing, we know we have a problem.
    [Laughter.]
    Chairman Roberts. Coop, you are up next.
    Senator Thune. Well, thank you, Mr. Chairman and Ranking 
Member Stabenow, for holding this hearing. It is good to hear 
from stakeholders on this issue. This is a really important 
issue which deals with budgetary impacts and threats to our 
natural resources on federal, state, and private lands. I am, 
Mr. Chairman, pleased to have these very distinguished leaders 
in our conservation, forestry, and wildlife communities who all 
recognize the urgent need for changes in our current forest 
management policies.
    A lot of the hearing today, I think, is focused on 
firefighting, borrowing, with the cost of fighting fires rising 
to $3 billion this year. But, I would--we have got to find a 
more effective means of paying for fighting those fires and 
eliminate the borrowing from forest management funds. But I 
also believe, Mr. Chairman, that it is imperative that we 
couple funding firefighting with improved forest management. 
Failure to improve forest management will result in a 
continuation of dangerous increases in forest fires and damages 
to private property and to the environment, and there are three 
things that I think can be done to improve forest management 
dramatically.
    The three changes that I would suggest, and I want to get 
our panel's reaction to this. But first would be to expand the 
use of categorical exclusions under NEPA. Second, to reduce 
litigated risk. Third, implementation of large landscape 
management plans, one of which is on the ground in the Black 
Hills National Forest in South Dakota and has proven to be very 
effective in battling the pine beetle infestation that we have 
had there.
    So, Mr. Chairman, I just think we have to--once again, we 
have a problem some believe can be solved by throwing more 
money at it, but I believe that if we can take a measured, 
common sense approach to managing our forests and to clearing 
the pathway for federal agencies to manage them effectively, we 
can make much better use of and even reduce the funding that is 
dedicated to fighting fires.
    So, I would like to get the panel's reaction, if I might, 
to just their thoughts about the three things that I have 
suggested and ask the question, do you believe that these 
following three items, if implemented, would benefit forest 
management, again, categorical exclusion expansion under NEPA, 
reducing litigated risk when collaborative forest management 
projects are implemented, and allowing the use of arbitration 
as an alternative dispute resolution mechanism, and then, 
finally, increased use of large landscape management plans. Mr. 
Stewart, do you want to lead off.
    Mr. Stewart. Yes. I will speak to the landscape approach, 
which I see as a partnership, a collaborative approach, both 
public and private, and I think that is probably where our 
biggest strength is and the biggest opportunity that we have is 
in focusing on a common objective based on a large scale 
landscape. I think that is a big part of the solution.
    Senator Thune. Others on any of those.
    Mr. Wood. On the categorical exclusion issue, I think in 
areas where you have broad agreement among multiple interests 
who have come together in some form of collaborative, I think 
relaxing some of the process requirements is probably a good 
idea. I would be nervous about doing that writ large across the 
landscape, because what you will do is you will end up creating 
antagonism and people will feel cut out of the process and they 
will try to gum up the works. So, that is my only comment.
    Senator Thune. Mr. Dougan.
    Mr. Dougan. Yes. I would also like to comment on the 
landscape idea. I know out in Eastern Oregon, my labor 
organization is working as part of a collaborative effort on 
stewardship with communities in Eastern Oregon, with other 
stakeholders, timber companies, environmental groups, bringing 
people together to talk about landscapes and what needs to be 
done and trying to iron out and reach agreement on as many 
issues in terms of how we should manage that land and what we 
should manage that land for in terms of timber and other 
values, and we are having some success doing that.
    So, I think those kinds of efforts, where you bring the 
stakeholders together and then hold everybody accountable for 
coming up with the solutions, I think that is a good approach 
to supplement this idea of landscape, because as has been 
pointed out, fire knows no geopolitical boundaries and we 
cannot just treat federal lands and let state and private lands 
go untreated because that is not going to solve the problem.
    Senator Thune. Anybody else?
    Mr. Dessecker. Yes to all three.
    Senator Thune. Good. That is the answer I was looking for.
    Thank you, Mr. Chairman.
    Chairman Roberts. I thank the Senator from South Dakota. He 
has really focused on the one question I was going to ask with 
regards to the landscape issue and I appreciate that very much 
and I thank the panelists for answering. Senator Boozman, let 
me remind all members that the vote has started. We have 
informed the cloakroom that we will be arriving soon.
    Mr. Boozman.
    Senator Boozman. Well, thank you, Mr. Chairman.
    I just want to take a second to highlight the efforts of my 
home state colleague, Congressman Bruce Westerman. Congressman 
Westerman is a professional engineer and the only Forester in 
Congress. He worked in forestry for almost two decades, earned 
a Master of Forestry degree from Yale University in 2001. He is 
a diverse guy. He played football at the University of 
Arkansas, also. His legislation, the Resilient Federal Forest 
Act, treats both the sickness of overgrown mismanaged forests 
and the symptoms, which include wildfire, disease, and insect 
infestations. I strongly support the bill.
    I would like to ask consent that we include a bipartisan 
op-ed that Congressman Westerman and his Democratic colleague, 
Congressman Kurt Schrader, have written titled, ``Resilient 
Federal Forest Act Treats Symptoms of Diseases'' into the 
record.
    [The information of Hon. John Boozman can be found on page 
112 in the appendix.]
    Chairman Roberts. Without objection.
    Senator Boozman. Very quickly, Mr. Stewart, while these 
issues are largely high profile in the West, we have serious 
impacts in the South, and I am really pleased that you are a 
witness and from that region, which includes a significant 
blend of federal forests, private, family land, and ownerships 
of an assortment of things. While I know your report focused 
largely on the West, how are the issues in the South similar or 
different when it comes to wildfire?
    Mr. Stewart. Well, the wildfires know, again, we talked 
about, no geopolitical boundaries, and certainly we have lots 
of wildfires, generally not as large, but they are all 
catastrophic when we have them. We have, again, the impact on 
the budget affects those states not in the West, just like it 
affects the states in the West----
    Senator Boozman. Right.
    Mr. Stewart. --and, so, if we look at the state and private 
programs and the mitigation efforts and the employment of the 
Service Foresters and others that are doing work for the 
private landowners, they are certainly impacted outside the 
West as a result of these fires and the way the budget is 
handled. So, it is a very significant impact throughout the 
country.
    Senator Boozman. So, what more can we do on public lands, 
since much of the inaction stems from lack of public land 
management? Does AFF have a position on the federal forest 
reform bill that is before this committee?
    Mr. Stewart. Well, our focus principally is on private 
lands, so that is where our focus is. But, certainly, the more 
management we have on both public and private lands, the more 
successful we are going to be in mitigating not only the risk, 
but the exposure that we have for--not just from wildfire, but 
also, as we reported in our report we submitted to the 
committee, related to water, as well. That is not exclusive to 
the West.
    Senator Boozman. Sure. Have you taken a position on the 
bill?
    Mr. Stewart. Not that I know of, no.
    Senator Boozman. Okay. Very good. What more can we do to 
stimulate markets for forest products to help address these 
wildfire and other issues?
    Mr. Stewart. Well, I am kind of a market person, so I think 
it is not a field of dreams approach, necessarily, that we take 
here. But something has to get this virtuous cycle started, and 
I think the grant programs that can begin to develop markets 
for forests that need to be restored, public or private, is 
most appropriate, as well as programs that identify those 
markets. Then the last component of it relates to research. I 
know in the Renewable Bioproducts Institute where I work at 
Georgia Tech, a lot of the focus is on the bio-based materials, 
and cellulose is going to be the backbone, I believe, of the 
future for our green chemistry and materials industry of the 
future.
    Senator Boozman. Good. Thank you, Mr. Chairman. Thank you 
all for being here.
    Chairman Roberts. Let me advise members we have eight 
minutes left on the vote. Senator Casey, if you could wrap up 
for us.
    Senator Casey. Mr. Chairman, thank you very much. I will 
keep within my time.
    I want to thank our witnesses for being here today. We are 
grateful for your testimony.
    I wanted to maybe direct my questions to our first two 
witnesses, and I say this as representing a state where we have 
got something on the order of 57 percent of our state is 
forested. We have got about 80,000 people that work in the 
forestry business. So, this is a major issue for Pennsylvania.
    Mr. Dessecker, you spoke of budget certainty, or a lack of 
budget certainty, and you also talked about the specific issue 
of funding for wildfire suppression affecting the ability of 
the Forest Service to meet wildlife management and invasive 
species management. Can you talk about those two issues? I know 
they are related, but I think it bears repeating how 
devastating, at least in my judgment, sequestration has been, 
among other problems you have had to face with regard to--or 
that the country has had to face with regard to budget 
uncertainty.
    Mr. Dessecker. With regard to uncertainty, it is rampant 
within the agency at this point because although they have a 
budget, they simply do not know what proportion of that budget 
is going to be pulled mid-year or late-year, so they do not 
know exactly what portion they can spend, and they do get 
directives to watch what they are doing, and they have to 
determine how the fire season is going before they can really 
implement projects that they have already planned.
    Senator Casey. Well, we appreciate you raising that, and I 
know we are very limited on time.
    Mr. Dougan, I wanted to ask you, I noted in your testimony 
about 22 years of fighting fires, a good part of your life, and 
the focus that you brought on the issue of well-trained 
firefighting staff. Can you walk us through that basic concern 
that you have?
    Mr. Dougan. Yes. There is a system in place, an interagency 
system in place that was put together to certify wildland 
firefighters, and they are required to take certain training, 
certain on-the-job training, and they are evaluated on the job, 
and then if they are found proficient, then they are certified 
to do certain jobs in the fire organization.
    Again, part of the problem is we have got a lot of--within 
the federal government, we have got a lot of people that we 
invested a lot of money in and have a lot of years that are at 
that age that they are making plans to retire and walk out the 
door, and with them is going to go that knowledge and those 
skills. The federal government overall has not done, in my 
opinion, a real good job of succession planning, not just in 
the fire organization, but certainly across many other 
agencies. So, that is one of the things we are facing.
    The other problems that we have, again, are budget related. 
A lot of agencies, if they have concerns over their budget, 
typically, the first thing that they set aside to try to save 
money is training and travel, which is sort of a self-
fulfilling prophecy for not being able to do a good job of 
succession planning within the future leadership of the fire 
management workforce.
    Senator Casey. Mr. Chairman, in light of the time, I will 
submit questions for the record.
    Chairman Roberts. I appreciate that.
    This will conclude our hearing today. I want to thank each 
of our witnesses for sharing your views on wildfire. The 
testimonies provided today are valuable for the Committee to 
hear firsthand, and we will take action.
    To my fellow members, we would ask that any additional 
questions you may have for the record be submitted to the 
committee clerk five business days from today, or by 5:00 p.m. 
next Thursday, November 12.
    The committee is adjourned.
    [Whereupon, at 11:13 a.m., the committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                            NOVEMBER 5, 2015



      
=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            NOVEMBER 5, 2015
     
=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


                         QUESTIONS AND ANSWERS

                            NOVEMBER 5, 2015



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            [all]
                            
</pre></body></html>
